CERTIFICATE OF WORD COUNT
NO. TBD
Universal Telephone Exchange, Inc.,
Petitioner(s),
v.
ZTE Corporation et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the UNIVERSAL TELEPHONE
EXCHANGE, INC. PETITION FOR WRIT OF CERTIORARI contains 4004 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 2, 2020

SCP Tracking: Faulkner-12770 Coit Road, Suite 720-Cover White

